NO. 19-764

In the Supreme Court of the United States
MARK SOKOLOW, ET AL.,
Petitioners,
v.
PALESTINE LIBERATION ORGANIZATION AND
PALESTINIAN AUTHORITY,

Respondents.

On Petition for a Writ of Certiorari to the United States
Court of Appeals for the Second Circuit
CERTIFICATE OF COMPLIANCE
I certify that the Respondents’ Opposition to Motion for Leave to File Amicus
Curiae Brief and Brief of Senators Charles Grassley, Representative Jerrold Nadler,
Representative Robert Goodlatte (Ret.), Senator Richard Blumenthal, Senator
Marco Rubio, Representative Theodore Deutch, Senator Thom Tillis, Representative
Kathleen Rice, and Senator Bill Nelson (Ret.) as Amici Curiae in Support of
Petitioners’ Petition for a Writ of Certiorari in the above entitled case complies with
Supreme Court Rule 33.2 as this brief is 4 pages long and contains 674 words and
was prepared in New Century Schoolbook 14 point.

Dated: January 21, 2020

Respectfully submitted,

Squire Patton Boggs (US) LLP
Gassan A. Baloul
Counsel of Record for Respondents
2550 M Street, NW
Washington, DC 20037
(202) 457-6155
gassan.baloul@squirepb.com

